(?
. ,l'~l"'VICø




  ""1'..It..r~"Ja
                              DEPARTMENT OF HEALTH &.
                              DEPARTMENT              HUMAN SERVICES
                                                   &. HUMAN SERVICES                                              Office
                                                                                                                  OfficeofofInspector

                                                                                                                  Washington,
                                                                                                                             Inspector General


                                                                                                                  Washington, D.C.
                                                                                                                                       General


                                                                                                                              D.C. 20201
                                                                                                                                   20201
 





                                                                                    SEP 30
                                                                                    SEP 3   2008
                                                                                          0 2008



                    TO:
                    TO:                     Kerry Weems
                                            Kerry Weems
                                            Acting Administrator
                                            Acting  Administrator
                                            Centers for
                                            Centers for Medicare
                                                        Medicare && Medicaid
                                                                    Medicaid Services


                    FROM:
                                    ~
                                    ~?-~            ?-~
                                             oseph E.
                                             oseph E. Vengrin
                                                    Inspector General for Audit Services
                                            Deputy Inspector


                    SUBJECT:                Review
                                            Review of
 of the Qualified Pension Plan at Nationwide Mutual Insurance Company,
                                            a Terminated Medicare Contractor, for the Period March 1, 1986, to
                                            June 30, 2002 (A-07-07-00239)


                    Attached is an advance copy of our final
                                                       final report on the qualified pension plan at Nationwide
                             Insurance Company
                    Mutual Insurance   Company (Nationwide),
                                                (Nationwide),aaterminated
                                                                 terminatedMedicare
                                                                             Medicarecontractor.
                                                                                        contractor. We
                                                                                                    We will
                                                                                                       wil issue this
                    report to Nationwide within 5 business days.

                    Our objective was to determine whether Nationwide complied with Federal requirements and the
                    Medicare contracts' pension
                                        pension segmentation
                                                 segmentationrequirements
                                                              requirements when:
                                                                           when:

                         .•    identifying the Medicare segment asset base (initial allocation) as of
                                                                                                   of March 1,
                                                                                                            1, 1986;
                                                                                                               1986;

                         .•    updating Medicare segment assets from March 1, 1986, to June 30, 2002; and

                         .•    determining Medicare's share of the Medicare segment excess pension assets as of the
                               determining Medicare's share ofthe Medicare segment excess pension assets as of

                               termination of Nationwide's
                                              Nationwide'sMedicare
                               termination of 
            Medicarecontracts.
                                                                    contracts.

                    Nationwide diddid not
                                      not always
                                           always comply
                                                   comply with
                                                           with Federal
                                                                Federal requirements
                                                                         requirements and
                                                                                       and the
                                                                                            the Medicare
                                                                                                Medicare contracts'
                                                                                                            contracts'
                    pension segmentation requirements. Specifically,
                                                             Specifically, Nationwide
                                                                           Nationwide did
                                                                                       did not
                                                                                            not correctly
                                                                                                correctly identify
                                                                                                           identify the
                    initial allocation of
                                       of pension plan assets to the Medicare segment as of  of March 1,1, 1986,
                                                                                                           1986, and did
                                                                                                                       did not
                    comply with the Medicare contracts'
                                                  contracts' pension
                                                             pensionsegmentation
                                                                     segmentationrequirements
                                                                                    requirements for
                                                                                                   forupdating
                                                                                                       updatingMedicare
                                                                                                                  Medicare
                    segment assets from March 1, 1986, to June 30, 2002.2002. AsAs a result, Nationwide understated the
                                                                                  a result, Nationwide    understated   the
                    Medicare
                    Medicare segment
                                segment assets
                                          assets by
                                                 by $1,990,365.
                                                    $1,990,365.

                     In addition, Nationwide did not comply with the provisions of its
                    In addition, Nationwide did not comply with the provisions of               its Medicare
                                                                                                    Medicare contracts
                                                                                                              contracts or
                                                                                                                         or the
                                                                                                                            the Cost
                                                                                                                                 Cost
                     Accounting Standards when determining Medicare's share ofthe
                    Accounting Standards when determining Medicare's share of
                 the Medicare
                                                                                                    Medicare segment
                                                                                                              segment excess
                                                                                                                        excess
                     pension
                    pension assetsassets
                                   as of   as ofthe
                                                 thetermination
                                                      termination
                                                                of 
 ofthe
                                                                       the Medicare
                                                                           Medicare contracts. WeWeidentified
                                                                                                     identified $14,891,163
                                                                                                                 $14,891,163 as as
                    Medicare's
                     Medicare's share;  share; however,
                                               however, Nationwide
                                                             Nationwide identified
                                                                         identified $7,378,044
                                                                                    $7,378,044 as
                                                                                                as Medicare's
                                                                                                    Medicare'sshare.
                                                                                                                share. Therefore,
                                                                                                                        Therefore,
                    Nationwide
                     Nationwide understated
                                         understated Medicare's
                                                       Medicare'sshare
                                                                     shareby
                                                                           by$7,513,119.
                                                                              $7,513,119.
Page 2 – Kerry Weems


We recommend that Nationwide:

   •	 increase Medicare segment pension assets as of June 30, 2002, by $1,990,365;

   •	 increase Medicare’s share of the excess Medicare segment pension assets as of          

      June 30, 2002, by $7,513,119; and 


   •	 refund to the Federal Government $14,891,163, which we calculated to be Medicare’s
      share of the Medicare segment excess pension assets as of the termination of the
      Medicare contracts.

In written comments on our draft report, Nationwide did not address our recommendations.
Nationwide disagreed with our findings, calculations, valuation methods, and the applicability of
some of the criteria that we used. After reviewing Nationwide’s comments, we made a minor
revision to our calculations and the related recommendations. Our findings and
recommendations, as revised, are valid.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact George M. Reeb, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov or Patrick J.
Cogley, Regional Inspector General for Audit Services, Region VII, at (816) 426-3591 or through
e-mail at Patrick.Cogley@oig.hhs.gov. Please refer to report number A-07-07-00239.


Attachment
,.g
(~~
    .
(-f
~,.,.......~
 

~,.,.....~
                  DEPARTMENT OF
                  DEPARTMENT OF HEALTH
                                HEALTH &
                                       & HUMAN
                                         HUMAN SERVICES
                                               SERVICES
                                                                                               Ofce of
                                                                                               Office
                                                                                               Offices




                                                                                               60
                                                                                               60 1
                                                                                                      ofInspctor
                                                                                               Offces of
                                                                                                         InspectorGeneral
                                                                                                       ofAudit



                                                                                               Region VII
                                                                                                  1 East
                                                                                                                   General
                                                                                                          Audit Services
                                                                                                                Services




                                                                                                         121h SlJeet

                                                                                                    East 121h
                                                                                               Roo 28A
                                                                                               Room284A
                                                                                                              SlTeet

                                                     OCT
                                                     OCT -- 22 2008
                                                                2008                           Kansas City, Missouri
                                                                                                            Missouri 64106
                                                                                                                     64106


         Report Number:
         Report Number: A-07-07-00239
                        A-07-07-00239

         Mr. Steve D. Cox, CPA, CEBS
         Director of
                  of Benefits Finance
         Nationwide Mutual Insurance Company
         One Nationwide Plaza
         Columbus, Ohio
                     Ohio 43125-2220
                          43125-2220
 


         Dear
         Dear Mr. Cox:
                  Cox:


          Enclosed is the U.S. Department of Health and Human Services (HHS), Office of                       of Inspector
          General       (OIG),     final    report    entitled
          General (OIG), final report entitled "Review of 
    "Review  of  the Qualified   Pension Plan at Nationwide   Mutual
          Insurance Company, a Terminated Medicare Contractor, for the Period March                  March 1,1, 1986,
                                                                                                                1986, to
                   30,2002." We
          June 30,2002."             Wewil  willforward
                                                   forwardaacopy
                                                               copyofthis
                                                                    of thisreport
                                                                             reporttotothe
                                                                                        theHHS
                                                                                            HHSaction
                                                                                                actionofficial
                                                                                                       official noted
                                                                                                                noted on
                                                                                                                      on the
         .following
         . following page page for reviewreview and  and any action deemed
                                                                    deemed necessary.
                                                                               necessar.

                                   wil make
         The HHS action official will  make final
                                               final determination
                                                     determination as
                                                                    as to
                                                                       to actions
                                                                           actions taken
                                                                                    taken on
                                                                                           on all
                                                                                               all matters
                                                                                                   matters reported.
                          you respond
         We request that you   respond to
                                        to this
                                           this official
                                                official within
                                                         within 30
                                                                30 days
                                                                   days from
                                                                          from the
                                                                                the date
                                                                                     date of
                                                                                          of this
                                                                                              this letter.
                                                                                                    letter. Your
         response should present any comments or additional information that you believe may have a
         bearing on the final determination.

         Pursuant
         Pursuant to theto  the principles
                         principles of          of the   Freedom
                                                   the Freedom of 
     Information Act,
                                                                    of Information  Act, 55 U.S.C.
                                                                                            V.S.C. §§ 552,
                                                                                                      552,asasamended
                                                                                                               amendedby
                                                                                                                       by
         Public Law 104-231, OIG reports generally are made available to the public to the extent the
         information is not      not subject
                                       subject to
                                                to exemptions
                                                    exemptionsin    inthe
                                                                       theAct
                                                                           Act(45
                                                                               (45CFR
                                                                                  CFRpartpar 5).
                                                                                             5). Accordingly,
                                                                                                 Accordingly, this report
         wil be
         will   beposted
                     postedon   on thethe Internet
                                           Internet at
                                                     at http://oig.hhs.gov.
                                                         http://oig.hhs.gov.

          If you have any questions or comments about this report, please do not hesitate
                                                                                 hesitate to call me at
          (816)
          (816) 426-3591,
                 426-3591, or
                           or contact
                              contact Jenenne
                                      Jenenne Tambke,
                                              Tambke, Audit
                                                      Audit Manager,
                                                             Manager, at
                                                                       at (573) 893-8338, extension
                                                                          (573) 893-8338,   extension 21,
                                                                                                      21, or
                                                                                                          or
          through e-mail at Jenenne.Tambke@oig.hhs.gov.    Please refer to report number
                            Jenenne.Tambke~oig.hhs.gov. Please                    number A-07-07-00239
          in all correspondence.

                                                                Sincerely,



                                             ~.~                               ..
                                                                Patrick J. Cogley
                                                                Regional Inspector General
                                                                  for Audit Services


          Enclosure
Page 2 – Mr. Steve D. Cox, CPA, CEBS


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





       REVIEW OF THE 

QUALIFIED PENSION PLAN AT 

    NATIONWIDE MUTUAL 

    INSURANCE COMPANY,

  A TERMINATED MEDICARE
CONTRACTOR, FOR THE PERIOD
      MARCH 1, 1986, TO
       JUNE 30, 2002



                    Daniel R. Levinson

                     Inspector General 


                      October 2008

                      A-07-07-00239

                    Office of Inspector General
                                        http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices
 



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY 


BACKGROUND 


Nationwide Mutual Insurance Company (Nationwide) administered Medicare Part B operations
under cost reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS)
from July 1, 1966, until the contractual relationship was terminated on June 30, 2002. The
effective closing date for the Medicare segment was June 30, 2002.

Pension Plan

Nationwide sponsors a defined-benefit pension plan, which is a deferred compensation plan in
which an employer makes actuarially determined contributions to fund an employee’s retirement
benefit as defined by the plan’s terms.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Medicare contracts, Federal Procurement Regulations, Federal Acquisition Regulation, and Cost
Accounting Standards (CAS). Furthermore, the Medicare contracts specifically prohibit any
profit (gain) from Medicare activities. Therefore, contractors must credit to the Medicare
program those pension gains (excess pension assets) that occur when a Medicare segment
terminates.

Pension Segmentation

Beginning with fiscal year 1988, CMS incorporated segmentation requirements into the
Medicare contracts. The Medicare contracts define a segment and specify the methodology for
the identification and initial allocation of pension assets to the segment. Additionally, the
contracts require Medicare segment assets to be updated for each year after the initial allocation
in accordance with CAS 412 and 413.

Upon the termination of its Medicare contracts, Nationwide identified Medicare’s share of the
Medicare segment excess pension assets to be $7,378,044. However, Nationwide has not
refunded any of this amount, opting to wait until the results of our audit are finalized.

OBJECTIVE

Our objective was to determine whether Nationwide complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

   •	 identifying the Medicare segment asset base (initial allocation) as of March 1, 1986;

   •	 updating Medicare segment assets from March 1, 1986, to June 30, 2002; and

   •	 determining Medicare’s share of the Medicare segment excess pension assets as of the
      termination of Nationwide’s Medicare contracts.


                                                 i
SUMMARY OF FINDINGS

Nationwide did not always comply with Federal requirements and the Medicare contracts’
pension segmentation requirements. Specifically, Nationwide did not correctly identify the
initial allocation of pension plan assets to the Medicare segment as of March 1, 1986, and did not
comply with the Medicare contracts’ pension segmentation requirements for updating Medicare
segment assets from March 1, 1986, to June 30, 2002. As a result, Nationwide understated the
Medicare segment assets by $1,990,365.

In addition, Nationwide did not comply with the provisions of its Medicare contracts or the CAS
when determining Medicare’s share of the Medicare segment excess pension assets as of the
termination of the Medicare contracts. We identified $14,891,163 as Medicare’s share; however,
Nationwide identified $7,378,044 as Medicare’s share. Therefore, Nationwide understated
Medicare’s share by $7,513,119.

RECOMMENDATIONS

We recommend that Nationwide:

   •	 increase Medicare segment pension assets as of June 30, 2002, by $1,990,365;

   •	 increase Medicare’s share of the excess Medicare segment pension assets as of           

      June 30, 2002, by $7,513,119; and 


   •	 refund to the Federal Government $14,891,163, which we calculated to be Medicare’s
      share of the Medicare segment excess pension assets as of the termination of the
      Medicare contracts.

AUDITEE COMMENTS

In written comments on our draft report, Nationwide did not address our recommendations.
Nationwide disagreed with our findings, calculations, valuation methods, and the applicability of
some of the criteria that we used. Nationwide’s comments are included in their entirety as
Appendix F.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Nationwide’s comments, we made a minor revision to our calculations and the
related recommendations. Our findings and recommendations, as revised, are valid.




                                                ii
                                                  TABLE OF CONTENTS 


                                                                                                                                    Page

INTRODUCTION.....................................................................................................................1 


          BACKGROUND ............................................................................................................1 

              Pension Plan........................................................................................................1 

              Federal Requirements .........................................................................................1 

              Pension Segmentation.........................................................................................1 


          OBJECTIVE, SCOPE, AND METHODOLOGY ..........................................................2 

               Objective .............................................................................................................2 

               Scope...................................................................................................................2 

               Methodology .......................................................................................................2 


FINDINGS AND RECOMMENDATIONS ...........................................................................3 


          MEDICARE SEGMENT ASSET BASE (INITIAL ALLOCATION) ..........................4 

               Federal Requirements .........................................................................................4 

               Understated Medicare Segment Asset Base as of March 1, 1986 ......................4 


          UPDATE OF MEDICARE SEGMENT ASSETS .........................................................5 

              Federal Requirements .........................................................................................5 

              Contributions and Prepayment Credits Overstated.............................................5 

              Benefit Payments Understated............................................................................6 

              Net Transfers Overstated ....................................................................................6 

              Earnings and Expenses Understated ...................................................................6 


          MEDICARE SEGMENT EXCESS PENSION ASSETS...............................................6 

               Federal Requirements .........................................................................................6 

               Excess Medicare Segment Pension Assets as of June 30, 2002 .........................9 

               Medicare’s Share of Excess Pension Assets as of June 30, 2002.......................9 


          RECOMMENDATIONS..............................................................................................10 


          AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL
          RESPONSE...................................................................................................................10 

               Pension Costs Incurred Under 

                Pre-Cost Accounting Standards Contracts ....................................................11 

               New Cost Accounting Standards ......................................................................12 

               Funding of 2002 Pension Costs ........................................................................12 

               Participant Transfers and Benefit Payments .....................................................13 

               Application of Prepayment Credits...................................................................13 

               Asset Valuation Method ...................................................................................15 

               Allocation of Return .........................................................................................16 

               Office of Inspector General Audit Approach....................................................16 




                                                                    iii
APPENDIXES

    A – MARKET VALUE OF PENSION ASSETS FOR THE PERIOD
        MARCH 1, 1986, TO JUNE 30, 2002

    B – COMPARISON OF ASSET FRACTION

    C – COMPARISON OF CONTRIBUTIONS AND
        PREPAYMENT CREDITS

    D – COMPARISON OF NET ASSET TRANSFERS

    E – CALCULATION OF AGGREGATE MEDICARE PERCENTAGE

    F – AUDITEE COMMENTS




                                iv
                Glossary of Abbreviations and Acronyms

CAS          Cost Accounting Standards
CMS          Centers for Medicare & Medicaid Services
ERISA        Employee Retirement Income Security Act of 1974
FAR          Federal Acquisition Regulation
FPR          Federal Procurement Regulations
FY           fiscal year
GAGAS        generally accepted government auditing standards
Nationwide   Nationwide Mutual Insurance Company
WAV          weighted average value




                                    v
                                      INTRODUCTION 


BACKGROUND 


Nationwide Mutual Insurance Company (Nationwide) administered Medicare Part B operations
under cost reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS)
from July 1, 1966, until the contractual relationship was terminated on June 30, 2002. The
effective closing date for the Medicare segment was June 30, 2002.

Pension Plan

Nationwide sponsors a defined-benefit pension plan, which is a deferred compensation plan in
which an employer makes actuarially determined contributions to fund an employee’s benefit as
defined by the plan’s terms. Once an employee satisfies the plan’s age and service requirements
and retires, he or she is eligible to receive a monthly payment from the plan. The plan
accumulates assets from employer contributions and net investment earnings to fund the actuarial
liability for both earned and projected future benefits. To the extent that assets accumulate from
better-than-expected investment earnings, the amount of required annual employer contributions
decreases and may even be eliminated for some years.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Medicare contracts, Federal Procurement Regulations (FPR), Federal Acquisition Regulation
(FAR), and Cost Accounting Standards (CAS). Furthermore, the Medicare contracts specifically
prohibit any profit (gain) from Medicare activities. Therefore, contractors must credit to the
Medicare program those pension gains (excess pension assets) that occur when a Medicare
segment terminates.

Federal Requirements

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods. CAS 413 also addresses the determination of segment
assets and liabilities in the event of contract terminations, segment closings, or pension plan
terminations.

FAR Part 31 and its predecessor, FPR, address the allowability of pension costs and the recovery
of gains, rebates, and other forms of credits for Federal contractors.

Pension Segmentation

CMS incorporated CAS 412 and 413 into the Medicare contracts effective October 1, 1980.
Starting in fiscal year (FY) 1988, CMS incorporated segmentation requirements into Medicare



                                                1

contracts. The Medicare contracts define a segment and specify the methodology for the
identification and initial allocation of pension assets to the segment. The contracts require
Medicare segment assets to be updated for each year after the initial allocation in accordance
with CAS 412 and 413. In claiming costs, contractors must follow cost reimbursement
principles contained in the FAR, CAS, and Medicare contracts.

Upon the termination of its Medicare contracts, Nationwide identified Medicare’s share of the
Medicare segment excess pension assets to be $7,378,044. However, Nationwide has not
refunded any of this amount, opting to wait until the results of our audit are finalized.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Nationwide complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

   •	 identifying the Medicare segment asset base (initial allocation) as of March 1, 1986;

   •	 updating Medicare segment assets from March 1, 1986, to June 30, 2002; and

   •	 determining Medicare’s share of the Medicare segment excess pension assets as of the
      termination of Nationwide’s Medicare contracts.

Scope

We reviewed Nationwide’s identification of its Medicare segment, computation of the initial
assets allocated to the Medicare segment, and update of Medicare assets from March 1, 1986, to
June 30, 2002 (the closing date for the Medicare segment). Nationwide did not maintain
complete records of how it accounted for segment assets when computing pension costs charged
to the Medicare contracts. However, prior to our review, Nationwide engaged an actuarial
consulting firm to analyze and reconstruct its asset accounting. We referred to the reconstructed
asset accounting and supporting data during our review.

Achieving our objectives did not require us to review Nationwide’s overall internal control
structure. However, we reviewed controls relating to the identification of the Medicare segment,
the update of the segment’s assets, and the determination of the final segment liabilities.

We performed fieldwork at Nationwide in Columbus, Ohio.

Methodology

To accomplish our objective:

   •     We reviewed the applicable portions of the FPR, FAR, CAS, and Medicare contracts.



                                                2

   •	    We reviewed the reconstructed data and analysis provided by Nationwide’s actuarial
         consulting firm and the annual actuarial valuation reports prepared by Nationwide’s
         internal actuarial department, which included the pension plan’s assets, liabilities,
         normal costs, contributions, benefit payments, investment earnings, and administrative
         expenses. We used this information to calculate the Medicare segment assets.

   •	    We obtained the pension plan documents and Department of Labor/Internal Revenue
         Service Form 5500s used in calculating the Medicare segment assets.

   •	    We interviewed Nationwide staff responsible for identifying the Medicare segment to
         determine whether the segment was properly identified in accordance with the Medicare
         contracts.

   •	    We reviewed Nationwide’s accounting records to verify the segment identification and
         benefit payments made to the Medicare segment.

   •	    We provided the CMS Office of the Actuary with the actuarial information necessary
         for it to calculate the Medicare segment assets and the Medicare segment excess
         pension assets as of June 30, 2002.

   •	    We reviewed the CMS actuaries’ methodology and calculations.

We performed this review in conjunction with our audit of Nationwide’s pension costs claimed
for Medicare reimbursement (A-07-07-00240) and used the information obtained during that
audit in this review.

We conducted this performance audit in accordance with generally accepted government
auditing standards (GAGAS). Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Nationwide did not always comply with Federal requirements and the Medicare contracts’
pension segmentation requirements. Specifically, Nationwide did not correctly identify the
initial allocation of pension plan assets to the Medicare segment as of March 1, 1986, and did not
comply with the Medicare contracts’ pension segmentation requirements for updating Medicare
segment assets from March 1, 1986, to June 30, 2002. As a result, Nationwide understated the
Medicare segment assets by $1,990,365.

Appendix A presents details of the Medicare segment’s pension assets from March 1, 1986, to
June 30, 2002, as determined during our audit. Table 1 on the next page summarizes the audit
adjustments required to update Medicare segment pension assets in accordance with Federal
requirements.



                                                3

                                   Table 1: Summary of Audit Adjustments
                                                    Per Audit Per Nationwide                    Difference
       Initial allocation                            $8,110,959      $8,106,641                      $4,318

       Update of pension assets:
         Contributions and prepayment credits                 11,875,029          13,166,119    (1,291,090)
         Benefit payments                                       (715,697)           (169,466)     (546,231)
         Transfers                                           (15,424,261)        (18,711,926)    3,287,665
         Earnings, net expenses                               30,585,564          30,049,861       535,703
       Understatement of Medicare segment                                                       $1,990,365

In addition, Nationwide did not comply with the provisions of its Medicare contracts or the CAS
when determining Medicare’s share of the Medicare segment excess pension assets as of the
termination of the Medicare contracts. We identified $14,891,163 as Medicare’s share; however,
Nationwide identified $7,378,044 as Medicare’s share. 1 Therefore, Nationwide understated
Medicare’s share by $7,513,119.

MEDICARE SEGMENT ASSET BASE (INITIAL ALLOCATION)

Federal Requirements

The Medicare contracts provide for separate identification of pension assets for the Medicare
segment. The identification involves the allocation of assets to the Medicare segment as of the
first pension plan year after December 31, 1985, in which the salary criterion was met. The
allocation is to use the ratio of the actuarial liabilities of the Medicare segment to the actuarial
liabilities of the total plan as of the first day of the first plan year after December 31, 1980, or the
first day of the first plan year following the date that the Medicare segment existed, whichever is
later. This ratio is known as the asset fraction.

Understated Medicare Segment Asset Base as of March 1, 1986

Nationwide calculated an asset fraction of 1.502 percent as of March 1, 1981, and used that
figure to calculate Medicare segment assets totaling $8,106,641 as of March 1, 1986.
Nationwide used the 1981 actuarial valuation report and actuarial valuation data printouts to
obtain the accrued actuarial liabilities for the total company and for the Medicare segment.
Nationwide then used these amounts to calculate its asset fraction. However, Nationwide did not
adjust the accrued actuarial liabilities for errors on the data printout. As a result, the accrued
actuarial liability amounts that Nationwide used to calculate the asset fraction did not reconcile
to the 1981 actuarial valuation report. We calculated the asset fraction to be 1.5028 percent,
which was 0.0008 percent higher than Nationwide’s value.

We applied this revised asset fraction to the audited total company pension assets as of
March 1, 1986, and calculated Nationwide’s Medicare segment asset base to be $8,110,959. Our
calculations increased the Medicare segment assets by $4,318 ($8,110,959 less $8,106,641) as of
1
    As stated earlier, Nationwide has not refunded any of these excess assets.


                                                             4

March 1, 1986. Nationwide’s initial allocation of Medicare segment assets was understated
because Nationwide did not adjust its asset fraction as discussed above. Details of Nationwide’s
and our calculations of the initial asset allocation appear in Appendix B.

UPDATE OF MEDICARE SEGMENT ASSETS

Federal Requirements

The Medicare contracts state that “. . . the pension assets allocated to each Medicare Segment
shall be adjusted in accordance with CAS 413.50(c)(7).” CAS 413.50(c)(7) requires that the
asset base be adjusted by contributions, permitted unfunded accruals, income, benefit payments,
and expenses. For plan years beginning on or before March 30, 1995, the CAS requires
investment income and expenses to be allocated among segments in proportion to the beginning-
of-year asset value. For plan years beginning after March 30, 1995, the CAS requires investment
income and expenses to be allocated among segments based on the ratio of the segment’s
weighted average value (WAV) of assets to total company WAV of assets.

In addition, CAS 413.50(c)(8) requires an adjustment to be made for transfers (participants who
enter or leave the segment) if the transfers materially affect the segment’s ratio of pension plan
assets to actuarial accrued liabilities. For plan years beginning after March 31, 1995, the CAS
requires that the assets transferred equal the actuarial accrued liabilities as determined using the
accrued benefit cost method.

Furthermore, CAS 412.50(a)(4) requires that contributions in excess of the pension cost assigned
to the period be recognized as prepayment credits and accumulated at the assumed valuation
interest rate until applied to future period costs. Prepayment credits that have not been applied to
fund pension costs are excluded from the value of assets used to compute pension costs.

Finally, FAR 31.201-1(a) requires that “[t]he total cost, including standard costs properly
adjusted for applicable variances, of a contract is the sum of the direct and indirect costs
allocable to the contract, incurred or to be incurred . . . .”

Contributions and Prepayment Credits Overstated

Nationwide overstated contributions and prepayment credits by $1,291,090 because of
differences in assignable pension costs, which resulted from Nationwide’s use of an imputed
interest cost in its current-year contributions. Nationwide based its computation of the
contributions and prepayment credits on an assumed end-of-year funding schedule rather than on
the interest incurred based on the actual timing of funding deposits, as required by the FAR.
Using the actual timing of funding deposits changed the Medicare asset values, which resulted in
differences in the assignable pension costs.

The audited contributions and prepayment credits are based on the assignable pension costs.
In compliance with CAS 412.50(a)(4) and FAR 31.201-1(a), we applied prepayment credits
first to current-year assignable pension costs and then updated any remaining credits with
interest to the next measurement (valuation) date because the credits are available at the



                                                  5

beginning of the year. We then allocated contributions as needed to assigned pension costs as
of the date of deposit.

Appendix C compares Nationwide’s and our calculations of allocated pension contributions
and prepayment credits.

Benefit Payments Understated

Nationwide understated benefit payments by $546,231 because it incorrectly included the benefit
payments in the net transfer amounts. Benefit payments made during the year to Medicare
segment participants should have been treated as benefit payments rather than asset transfers out
of the Medicare segment, as required by CAS 413.50(c)(7).

Net Transfers Overstated

Nationwide overstated transfers out of the Medicare segment by $3,287,665. Nationwide made
adjustments for transfers in its update of segment assets; however, it did not revalue transfers
using the accrued benefit cost method for plan years after March 31, 1995, as required by the
revised CAS. In addition, as mentioned earlier, Nationwide incorrectly included benefit
payments in the transfer amount. Therefore, Nationwide overstated its Medicare segment assets
by $3,287,665. Appendix D compares Nationwide’s and our calculations of net asset transfers
from the Medicare segment.

Earnings and Expenses Understated

Nationwide understated investment earnings, less administrative expenses, by $535,703 for the
Medicare segment. Nationwide did not use the WAV of assets to allocate earnings for plan years
after March 31, 1995, as required by CAS 413.50(c)(7). In addition, Nationwide’s practice of
adjusting contributions to the end of the year did not properly reflect the actual timing of
contributions in the WAV of assets allocated to each segment. Nationwide’s methodology
credited each segment with investment return on current-year contributions at the valuation rate, 2
instead of crediting current contributions with their actual rate of return as required by the CAS.
Because of this error, Nationwide’s allocation basis differed from that required by the CAS and
led to different allocation amounts. In our audited update, we allocated earnings and expenses
based on the applicable CAS requirements.

MEDICARE SEGMENT EXCESS PENSION ASSETS

Federal Requirements

Medicare Contracts

The Medicare contracts specifically prohibit any profit (gain) from Medicare activities. Pension
gains that occur when a segment closes (i.e., contract terminations) must be credited to the

2
 The valuation rate is the assumed interest rate used in actuarial computations to calculate the expected long-term
rate of return on plan assets.


                                                          6

Medicare program, as required by the FAR. In the event of a contract termination, the Medicare
contracts require contractors to follow the abnormal forfeiture provision of the FPR and the
segment closing provision of the CAS.

Federal Procurement Regulations

The Medicare contracts in force from 1966 to 1981 required that contractors comply with the
abnormal forfeiture provisions in the event of a contract termination.

FPR 1-15.205-6(f)(3) states:

       (3) In determining the cost of deferred compensation allowable under the contract,
       appropriate adjustments shall be made for credits or gains, including those arising
       out of both normal and abnormal employee turnover, or any other contingencies
       that can result in forfeiture by employees of such deferred compensation.
       Adjustments shall be made for forfeitures which directly or indirectly inure to the
       benefit of the contractor . . . . Adjustments for possible future abnormal forfeitures
       shall be effected according to the following rules: . . .

               (ii) Abnormal forfeitures . . . may be made the subject of agreement
               between the Government and the contractor either as an equitable
               adjustment or a method of determining such adjustment.

Furthermore, FPR 1-15.201-5 states: “The applicable portion of any income, rebate, allowance,
and other credit relating to any allowable cost, received by or accruing to the contractor, shall be
credited to the Government either as a cost reduction or by cost refund, as appropriate.”

The FPR kept the abnormal forfeiture adjustment for non-CAS-covered contracts when CAS 413
was incorporated into the FPR in 1980. All cost-based contracts awarded after the FAR was
published in September 1983 were subject to the provisions of CAS 413-50(c)(12), and the
abnormal forfeiture provision was determined to be unnecessary for future periods.

As amended in 1980, FPR 1-15.205-6(f)(3)(i)(B) reads:

       Under contracts not subject to Cost Accounting Standards, abnormal forfeitures
       due to significant reduction in the Contractor’s level of employment that are
       foreseeable and which can be currently evaluated with reasonable accuracy by
       actuarial or other sound computation shall be reflected by an adjustment of the
       costs otherwise allowable. When abnormal forfeitures were not taken into
       account previously, appropriate credit shall be given to the Government in
       accordance with § 1-15.201-5 . . . .

Federal Acquisition Regulation

The FAR addresses dispositions of gains in situations such as segment closings. When excess or
surplus assets revert to a contractor because of a termination of a pension plan, or when such



                                                 7

assets are constructively received by the contractor for any reason, the contractor must make a
refund or give credit to the Government for its equitable share (FAR 31.205-6(j)(4)).

Cost Accounting Standards

During 1980, CMS renegotiated the Medicare contracts and expressly incorporated CAS 412 and
413 into the contracts beginning October 1, 1980.

Contract terminations and segment closings are addressed by CAS 413.50(c)(12), which states:

       If a segment is closed, if there is a pension plan termination, or if there is a
       curtailment of benefits, the contractor shall determine the difference between the
       actuarial liability for the segment and the market value of the assets allocated to
       the segment, irrespective of whether or not the pension plan is terminated. The
       difference between the market value of the assets and the actuarial accrued
       liability for the segment represents an adjustment of previously-determined
       pension costs.

       (i) The determination of the actuarial accrued liability shall be made using the
       accrued benefit cost method. The actuarial assumptions employed shall be
       consistent with the current and prior long term assumptions used in the
       measurement of pension costs . . . .

       (ii) . . . The market value of the assets shall be reduced by the accumulated value
       of prepayment credits, if any. Conversely, the market value of assets shall be
       increased by the current value of any unfunded actuarial liability separately
       identified and maintained in accordance with 9904.412-50(a)(2).

       (iii) The calculation of the difference between the market value of the assets and
       the actuarial accrued liability shall be made as of the date of the event (e.g.,
       contract termination, plan amendment, plant closure) that caused the closing of the
       segment, pension plan termination, or curtailment of benefits. If such a date is not
       readily determinable, or if its use can result in an inequitable calculation, the
       contracting parties shall agree on an appropriate date.

       (iv) Pension plan improvements adopted within 60 months of the date of the event
       which increase the actuarial accrued liability shall be recognized on a prorata basis
       using the number of months the date of adoption preceded the event date. Plan
       improvements mandated by law or collective bargaining agreement are not subject
       to this phase-in.

The methodology for determining the Federal Government’s share of the excess pension assets is
addressed by CAS 413.50(c)(12)(vi), which states:

       The Government’s share of the adjustment amount determined for a segment shall
       be the product of the adjustment amount and a fraction. The adjustment amount



                                                8

       shall be reduced for any excise tax imposed upon assets withdrawn from the
       funding agency of a qualified pension plan. The numerator of such fraction shall
       be the sum of the pension plan costs allocated to all contracts and subcontracts
       (including Foreign Military Sales) subject to this Standard during a period of years
       representative of the Government’s participation in the pension plan. The
       denominator of such fraction shall be the total pension costs assigned to cost
       accounting periods during those same years. This amount shall represent an
       adjustment of contract prices or cost allowance as appropriate. The adjustment
       may be recognized by modifying a single contract, several but not all contracts, or
       all contracts, or by use of any other suitable technique.

Excess Medicare Segment Pension Assets as of June 30, 2002

Nationwide identified $12,122,977 in excess Medicare segment pension assets as of
June 30, 2002. However, we calculated the excess pension assets to be $14,904,577 as of
that date. Therefore, Nationwide understated the excess pension assets by $2,781,600. The
understatement occurred because Nationwide did not comply with the CAS in updating the
Medicare segment pension assets to June 30, 2002, as previously discussed. In addition,
Nationwide did not comply with CAS 413.50(c)(12) because it did not prorate a pension plan
improvement made within 60 months of the segment closing and did not use the accrued benefit
cost method to value the accrued liabilities for the active participants who remained with the
company. Table 2 summarizes, for each of these causes, the differences between Nationwide’s
and our calculations.

         Table 2: Summary of Adjustments to Excess Medicare Segment Pension Assets
                                                Per Audit    Per Nationwide Difference
Medicare segment assets as of June 30, 2002     $34,431,594     $32,441,229    $1,990,365
Adjustment for plan improvement                     247,950               0        247,950
Accrued liabilities of active participants         (651,185)     (1,194,470)       543,285
Understatement                                                                 $2,781,600

Medicare’s Share of Excess Pension Assets as of June 30, 2002

Nationwide did not comply with the provisions of its Medicare contracts in determining
Medicare’s share of the Medicare segment excess pension assets as of June 30, 2002.
Nationwide computed $7,378,044 as Medicare’s share; however, we determined that Medicare’s
share was $14,891,163. Therefore, Nationwide understated Medicare’s share by $7,513,119.

For the years prior to October 1, 1980, the Medicare contracts incorporated the FPR, which
included the provision for crediting the actuarial gain from abnormal forfeitures, i.e., “significant
reduction in the Contractor’s level of employment,” cited above. For the year beginning
October 1, 1980, and for succeeding years, the Medicare contracts incorporated CAS 412 and
413 and required that those Federal requirements, including the calculation of the segment
closing adjustment, be followed.




                                                  9

At the end of the Medicare contracts, Nationwide closed its Medicare Division with a mass
termination of the employees. Thus, Nationwide’s termination of its Medicare contracts met the
criteria of both an abnormal forfeiture and a segment closing. Therefore, Nationwide should
have calculated the aggregate Medicare percentage using the information from 1966 to June 30,
2002, the date that the contractual relationship was terminated, in both the numerator and the
denominator of the fraction. However, Nationwide calculated its aggregate Medicare percentage
by dividing the Medicare segment contributions for plan years 1988 through 2002 (the
numerator) by the Medicare segment contributions for plan years 1966 through 2002 (the
denominator). This methodology did not comply with the criteria for an abnormal forfeiture or a
segment closing.

We calculated the Medicare segment’s aggregate Medicare percentage in compliance with both
the abnormal forfeiture and the segment closing criteria and applied that percentage to the
Medicare segment’s excess pension assets to determine Medicare’s share of the excess assets.
Appendix E shows our calculation of the Medicare segment’s aggregate Medicare percentage;
Table 3 shows our calculation of Medicare’s share of the excess assets.

                 Table 3: Calculation of Medicare’s Share of the Excess Assets

                     Excess Medicare     Aggregate Medicare      Excess Assets Attributable to
                    Segment Assets (A)     Percentage (B)              Medicare (AxB)

   Per audit              $14,904,577          99.91%                   $14,891,163
   Per Nationwide          12,122,977          60.86%                    7,378,044
   Difference                                                           $7,513,119



RECOMMENDATIONS

We recommend that Nationwide:

   •	 increase Medicare segment pension assets as of June 30, 2002, by $1,990,365;

   •	 increase Medicare’s share of the excess Medicare segment pension assets as of
      June 30, 2002, by $7,513,119; and

   •	 refund to the Federal Government $14,891,163, which we calculated to be Medicare’s
      share of the Medicare segment excess pension assets as of the termination of the
      Medicare contracts.

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Nationwide did not address our recommendations.
Nationwide disagreed with our findings and identified 10 areas of dispute pertaining to this




                                               10 

report and a related report on costs claimed (A-07-07-00240). 3 We present a summary of
Nationwide’s comments, as well as our responses, below. Nationwide’s comments are included
in their entirety as Appendix F.

After reviewing Nationwide’s comments, we made a minor revision to our calculations and the
related recommendations. Our findings and recommendations, as revised, are valid.

Pension Costs Incurred Under Pre-Cost Accounting Standards Contracts

Auditee Comments

Nationwide stated that pension costs incurred under pre-CAS contracts should not increase the
aggregate Medicare percentage. In addition, Nationwide stated that it had not been able to find
Appendix B to its Medicare contract; therefore, according to Nationwide, our position on using
the pension costs attributable to the Medicare contract was incorrect.

Furthermore, Nationwide did not agree that the “abnormal forfeiture” provision of the FPR
applied to the segment closing. Nationwide cited a Federal Claims Court decision (Teledyne,
Inc. vs. United States, 50 Fed. Cl. 155 (2001)) that, in Nationwide’s view, prevented recoveries
from prior periods. Nationwide stated: “During the time that Nationwide’s pre-CAS contracts
were in force, no abnormal forfeiture occurred and those contracts have long since been
superseded by the 1987 Contract, in which CAS 413.50(c)(12) controls.”

Office of Inspector General Response

Article XVI, Item B, of the Medicare contract states: “. . . [t]he total amount of allowable costs
 . . . in the performance of this agreement . . . shall be determined in accordance with the
provisions of section 1-15.2 of the FPR, as [i]nterpreted and modified by Appendix B to this
agreement . . . .” This reference to Appendix B demonstrates that the contract was subject to
CAS 412 and 413 through FPR 1-15 and by direct incorporation of Appendix B, which was
explicitly part of the contract.

Furthermore, we disagree with Nationwide’s interpretation of the Teledyne decision. The
Teledyne decision addressed the applicability limits of CAS 413 and concluded that CAS 413
could be applied only prospectively from the date of its first application, which was October 1,
1980 (the first day of FY 1981). Prior to October 1, 1980, the contract provisions were to be
used in determining the recovery. Moreover, the Teledyne decision did not prevent recovery for
periods prior to the CAS applicability; rather, it said only that CAS 413 could not be the basis for
such recovery.

In light of the applicability limits of CAS 413, as delineated in the Teledyne decision, the FPR
and contract clauses in effect prior to October 1, 1980, combined with the “no profit”
requirement and the FAR credits clause, give the Government a right to an equitable adjustment

3
 Two areas of dispute (“1995 Cost Claimed” and “Federal Fiscal Year 1987–1988 Costs”) related only to the costs
claimed report; therefore, we will address those comments in that report.



                                                       11 

for a contingent event that did not occur (and was previously unforeseeable) until the contract
ended and employees were laid off.

The FPR was free to set forth measurement, assignment, and allocability rules for pensions and
other deferred compensation for non-CAS-covered contracts for periods prior to FY 1981. In
FY 1981, the FPR/FAR incorporated CAS 412 and 413 for FAR contracts.

New Cost Accounting Standards

Auditee Comments

Nationwide disagreed with the application of the revised CAS requirements to the update of
assets from January 1, 1996, through June 30, 2002. Nationwide stated that the 1987 Medicare
contract was the last contract executed with the Government; therefore, according to Nationwide,
the 1995 revision to the CAS did not apply.

Office of Inspector General Response

We disagree that the CAS amended as of March 31, 1995 (revised CAS), did not apply to
Nationwide’s segmentation of the pension plan. The contract clearly imposed the FAR as
modified on June 15, 1995, which incorporated the revised CAS 412 and 413. In addition,
Nationwide’s statement that there were no new contracts between CMS and Nationwide after
1987 is incorrect. The Medicare contracts are awarded annually to an incumbent contractor by
consent; therefore, the revised CAS 412 and 413 were applicable to Nationwide’s new contract
(via automatic renewal) effective October 1, 1995.

Furthermore, Nationwide did not fully or consistently apply the provisions of the revised CAS
throughout its update of Medicare segment assets. Nationwide said that the revised CAS did not
apply for purposes of accounting for the Medicare segment assets from January 1, 1996, through
the contract termination. However, Nationwide generally applied the revised CAS in
determining Medicare’s share of the excess assets by relying on CAS 413-50(c)(12)(vi), as
amended.

Funding of 2002 Pension Costs

Auditee Comments

Nationwide disagreed that the 2002 pension costs were zero. Furthermore, it stated that we
incorrectly excluded the 2002 contributions made after the segment closing from the calculation
and that “even if the OIG [Office of Inspector General] had determined that a CAS cost greater
than zero was assigned to the period beginning January 1, 2002, it apparently would have
deemed that cost to be unallowable.” Nationwide also quoted a note in our working papers.




                                                12 

Office of Inspector General Response

Nationwide did not quote the entire text of the note in our working papers, which concluded:
“This approach is consistent with the methodology used by Nationwide’s actuary (Pine Cliff) as
described in their report [submission] in footnote 63 on page V-11.” Therefore, Nationwide was
questioning its own methodology in treating the 2002 contribution.

Furthermore, the handling of the 2002 contribution did not have any impact on our calculations
or findings. In fact, we used Nationwide’s approach of excluding from the calculations the 2002
contribution made after the segment closing date. Nationwide was therefore incorrect in stating
that we would have disallowed the contribution only because it was made after the segment
closing date. We will address the differences in the computation of the allowable pension costs
for 2002 in our costs claimed report.

Participant Transfers and Benefit Payments

Auditee Comments

Nationwide did not agree with the manner in which we handled participant transfers and benefit
payments. In addition, it disagreed with the use of the actuarial valuation report instead of the
IRS Form 5500 to identify the yearly total company benefit payments.

Office of Inspector General Response

Nationwide’s treatment of the Medicare segment benefit payments was incorrect. From the date
of retirement until the benefit liability and assets were transferred on the last day of the plan year,
the benefit payments were paid from the Medicare segment’s assets. Accordingly, Nationwide
incorrectly charged the benefit payments to the “other” segment’s assets.

We do not agree that the IRS Form 5500 is the appropriate document to identify the total
company benefit payments. The benefit payments shown on the IRS Form 5500 were not
actuarially verified. Therefore, we relied on the total company benefit payments reported in the
actuarial valuation report.

Application of Prepayment Credits

Auditee Comments

Nationwide stated that it did not agree with our calculation of its CAS costs when prepayment
credits were present. Nationwide said that our method was inequitable, violated provisions of
the revised CAS, and diverged from prior Federal guidelines.

   •	 Nationwide disagreed that the Federal Government had a right to the prepayment credits.
      It stated that the prepayments belonged to the contractor and that “[i]t simply does not
      make sense that the Government can reap a benefit . . . from an asset in which it has no
      ownership interest.”



                                                  13 

    •	 Nationwide disagreed with our method of applying prepayment credits as of the
       beginning of the year. Nationwide said that prepayment credits are contractor monies
       applied at the discretion of the contractor and that the CAS permits, but does not require,
       prepayments to be applied as of the beginning of each plan year to fund current costs.
       Furthermore, Nationwide stated that the “New CAS 412” (i.e., the revised CAS) allowed
       the contractor “. . . to apply its prepayment credits before or after it applies its
       contributions, at its discretion.”

    •	 Nationwide questioned the application of FAR 31.201-1(a) as the basis for requiring the
       use of the prepayment credit as of the first day of the plan year.

    •	 Nationwide questioned the audit approach of accounting for prepayments in the “other”
       segment until needed to fund future pension costs. Nationwide suggested that this
       approach contradicted the premise that prepayments are not associated with segments
       until they are allocated.

Office of Inspector General Response

Provided that current-year pension costs are funded by the tax filing deadline, the source or
timing of the funding has no effect on the assignable and allocable pension costs determined
under the CAS and is therefore not specifically addressed by the CAS. Instead, the timing of
funding deposits affects the interest cost attributable to the delay in funding, which is allowable
only in accordance with the FAR. Part 31 of the FAR defines the total costs under a contract as
incurred costs and further requires that incurred costs be reasonable to be allowable. 4

Our audit methodology reflected the fact that prepayment credits were available to fund the
assignable pension cost as of the first day of the plan year. Nationwide had already made the
decision to fund these monies into the pension trust, and, for that reason, these monies were
unavailable to Nationwide for any purpose except to liquidate pension costs. It would not be
reasonable for a prudent person in the conduct of competitive business to ignore the existence of
an available funding credit and thereby incur increased interest costs. Therefore, any increased
interest costs resulting from a delay in funding would be unreasonable and unallowable.

Contrary to Nationwide’s assertion with respect to the adjustment of CAS pension costs, the
preamble to the original CAS 412 did not contemplate the calculation of interest costs based on
presumed funding dates. It simply stated that the standard does not prohibit an interest
adjustment to pension costs from the valuation date to the date of funding. Furthermore, the
allowability of interest/investment costs is the purview of the FAR.


4
 FAR 31.201-2(a) provides that a cost is allowable only when it “. . . complies with the all of the following
requirements: (1) Reasonableness. (2) Allocability. and (3) Standards promulgated by the CAS Board, if applicable,
otherwise, generally accepted accounting principles and practices appropriate to the circumstances.” FAR 31.201-
3(a) defines a cost to be reasonable if “. . . in its nature and amount, it does not exceed that which would be incurred
by a prudent person in the conduct of competitive business.” Furthermore, FAR 31.201-3(a) provides that “[i]f an
initial review of the facts results in a challenge of a specific cost by the contracting officer or the contracting
officer’s representative, the burden of proof shall be upon the contractor to establish that such cost is reasonable.”


                                                          14 

FAR 31.201-1 defines the costs under a contract as “ . . . the sum of direct and indirect costs
allocable to the contract, incurred or to be incurred . . . .” The FAR also provides that “. . . any
generally accepted method of determining or estimating costs that is equitable and is consistently
applied may be used.” This language effectively counters Nationwide’s assertion that our
approach to the calculation of costs was inequitable. Nationwide’s calculation of interest costs
included costs that were not actually incurred. In fact, Nationwide’s method of estimating
incurred interest costs based on a presumed funding schedule was not equitable because it
consistently overstated (maximized) the interest costs to the Federal Government.

CAS 413-50(c)(7) specifies that investment return and expenses are to be allocated among
segments based on the WAV of assets for each segment. Nationwide’s practice of adjusting
contributions to the end of the year for purposes of asset rollup and allocation of investment
returns did not conform to the required WAV methodology. Nationwide’s incorrect allocation of
investment income consequently affected the asset values for each segment and the resulting
pension costs for all subsequent periods.

In addition, Nationwide’s statement about accounting for prepayments in the “other” segment
misinterpreted the methodology and intent laid out in the applicable CAS. Prepayment credits
accounted for in the “other” segment are accumulated with interest at the valuation rate and
subtracted from the assets of the “other” segment for purposes of computing audited pension
costs, as required under CAS 412-50(a)(4). Prepayment credits are accounted for as part of the
“other” segment only for purposes of allocating investment returns and expenses between the
segments. This is necessary so that any gain or loss attributable to prepayments (resulting from a
difference between the actual investment return and the valuation interest rate) is assigned to the
“other” segment. Thus, the inclusion of prepayment credits with the assets of the “other”
segment for the purpose of allocating investment returns is consistent with the premise that
prepayment credits are the result of the plan sponsor’s investment decision to fund amounts in
excess of the assigned costs (rather than to retain the funds within the company). Accordingly,
the Federal Government should not share in the investment risk or reward associated with those
funds.

Asset Valuation Method

Auditee Comments

Nationwide stated that contractors were entitled to select their accounting practices. Nationwide
quoted from its settlement proposal to CMS, which stated that “[t]he 1989 change in the ERISA
[Employee Retirement Income Security Act of 1974] asset valuation method from account value
to market value was not adopted for CAS purposes.”

Office of Inspector General Response

We disagree with Nationwide’s asset valuation contained in the proposal settlement prepared by
its consultant, Pine Cliff. The CMS Office of the Actuary, in consultation with us, used
Nationwide’s actuarial value of assets because that was its established practice for Government
contract costing and for ERISA. Throughout the audit period, Nationwide based its pension



                                                15 

costs claimed on the Financial Accounting Standards 87 expense. The Financial Accounting
Standards 87 expense calculation prepared by Pine Cliff was based on the market value of assets;
therefore, it was Pine Cliff that decided to arbitrarily use a different asset valuation method long
after the original calculation of assets had been completed. Pine Cliff’s election to change
Nationwide’s asset valuation methodology from market value to account value constituted a
retroactive change in accounting methodology, which violates paragraph II of Appendix B of the
Medicare contract. Approval of changes in accounting practice must be requested from CMS in
advance; however, Nationwide did not request such approval.

Allocation of Return

Auditee Comments

Nationwide disagreed with the inclusion of prepayment credits in the beginning-of-the-plan-year
market value of assets used to allocate investment earnings for plan years prior to March 31,
1995.

Office of Inspector General Response

We determined that Nationwide’s methodology for allocating the investment earnings using the
beginning-of-the-plan-year market value of assets before the allocation of the annual prepayment
credit was reasonable for plan years 1986 through 1995. We have revised our calculations
accordingly.

Office of Inspector General Audit Approach

Auditee Comments

Nationwide questioned whether our audit approach complied with the independence
requirements imposed by GAGAS. Specifically, Nationwide stated that we engaged the Office
of the Actuary within CMS (a party to the Medicare contracts) to independently calculate
Nationwide’s pension costs and that we accepted those calculations as correct.

Office of Inspector General Response

GAGAS allow the use of specialists (including actuaries) to assist in performing audits. We
performed sufficient tests to determine that the CMS Office of the Actuary was, in fact,
independent. Furthermore, we critically reviewed the actuary’s calculations. Our review
complied with all GAGAS requirements.




                                                16 

APPENDIXES 

                         MARKET VALUE OF PENSION ASSETS                  APPENDIX A
                                FOR THE PERIOD                             Page 1 of 6
                           MARCH 1, 1986, TO JUNE 30, 2002


          Description              Total Company      Other Segment      Medicare

Assets March 1, 1986          1/      $539,723,120       $531,612,161       $8,110,959

Prepayment credit                                0                  0                0
Contributions                 2/        19,801,488         19,213,528          587,960
Other transaction             3/           (33,312)           (33,312)               0
Earnings                      4/        94,762,249         93,338,162        1,424,087
Benefit payments              5/       (18,131,610)       (18,131,610)               0
Expenses                      6/          (396,030)          (390,078)          (5,952)
Transfers                     7/                 0            305,771         (305,771)

Assets March 1, 1987                   635,725,905        625,914,622        9,811,283

Prepayment credit                                0                  0                0
Contribution                            31,419,137         30,899,952          519,185
Earnings                                24,245,549         23,871,363          374,186
Benefit payments                       (20,274,420)       (20,260,701)         (13,719)
Expenses                                  (628,383)          (618,685)          (9,698)
Transfers                                        0            358,959         (358,959)

Assets March 1, 1988                   670,487,788        660,165,510       10,322,278

Prepayment credit                                0                  0                 0
Contribution                                     0                  0                 0
Earnings                                59,889,385         58,967,377           922,008
Benefit payments                       (23,583,216)       (23,549,238)          (33,978)
Expenses                                         0                  0                 0
Transfers                                        0          1,104,630        (1,104,630)

Assets March 1, 1989                   706,793,957        696,688,279       10,105,678

Prepayment credit                                0                  0                0
Contributions                           17,564,538         16,922,794          641,744
Other transaction                       46,912,601         46,912,601                0
Earnings                               112,925,070        111,310,477        1,614,593
Benefit payments                       (22,113,981)       (22,113,981)               0
Expenses                                         0                  0                0
Transfers                                        0            417,679         (417,679)

Assets January 1, 1990                $862,082,185       $850,137,849      $11,944,336
                         MARKET VALUE OF PENSION ASSETS                   APPENDIX A
                                FOR THE PERIOD                              Page 2 of 6
                           MARCH 1, 1986, TO JUNE 30, 2002


          Description              Total Company       Other Segment      Medicare

Assets January 1, 1990                $862,082,185        $850,137,849      $11,944,336

Prepayment credit                                 0                  0                0
Contribution                             36,952,880         35,847,846        1,105,034
Earnings                                 42,730,834         42,138,789          592,045
Benefit payments                        (30,775,688)       (30,764,286)         (11,402)
Expenses                                          0                  0                0
Transfers                                         0            640,727         (640,727)

Assets January 1, 1991                 910,990,211         898,000,925       12,989,286

Prepayment credit             8/                 0            (375,489)         375,489
Contribution                            35,446,721          34,551,736          894,985
Earnings                               173,141,898         170,673,167        2,468,731
Benefit payments                       (34,045,100)        (34,032,457)         (12,643)
Expenses                                         0                   0                0
Transfers                                        0             530,206         (530,206)

Assets January 1, 1992                1,085,533,730      1,069,348,088       16,185,642

Prepayment credit                                 0         (1,120,165)       1,120,165
Contributions                                     0                  0                0
Earnings                                 62,306,533         61,377,523          929,010
Benefit payments                        (37,274,039)       (37,250,269)         (23,770)
Expenses                                          0                  0                0
Transfers                                         0            792,824         (792,824)

Assets January 1, 1993                1,110,566,224      1,093,148,001       17,418,223

Prepayment credit                                0            (448,266)         448,266
Contribution                            38,090,934          37,202,431          888,503
Earnings                               105,001,748         103,354,891        1,646,857
Benefit payments                       (40,845,626)        (40,830,618)         (15,008)
Expenses                                         0                   0                0
Transfers                                        0             820,126         (820,126)

Assets January 1, 1994               $1,212,813,280     $1,193,246,565      $19,566,715
                         MARKET VALUE OF PENSION ASSETS                    APPENDIX A
                                FOR THE PERIOD                               Page 3 of 6
                           MARCH 1, 1986, TO JUNE 30, 2002


          Description              Total Company       Other Segment       Medicare

Assets January 1, 1994               $1,212,813,280     $1,193,246,565       $19,566,715

Prepayment credit                                 0            (548,906)         548,906
Contribution                             61,575,528          60,259,886        1,315,642
Earnings                                 21,495,429          21,148,636          346,793
Benefit payments                        (43,613,254)        (43,606,177)          (7,077)
Expenses                                          0                   0                0
Transfers                                         0             897,921         (897,921)

Assets January 1, 1995                1,252,270,983       1,231,397,925       20,873,058

Prepayment credit                                0            (848,690)           848,690
Contribution                            69,866,725          68,762,517          1,104,208
Other transaction                      229,186,211         229,186,211                  0
Earnings                               250,721,279         246,542,216          4,179,063
Benefit payments                       (50,806,376)        (50,802,502)            (3,874)
Expenses                                         0                   0                  0
Transfers                                        0           1,201,597         (1,201,597)

Assets January 1, 1996                1,751,238,822      1,725,439,274        25,799,548

Prepayment credit                                0            (800,781)          800,781
Contribution                            54,252,647          53,757,726           494,921
Other transaction                          975,000             975,000                 0
Earnings                               209,467,095         206,230,158         3,236,937
Benefit payments                       (68,143,108)        (68,063,965)          (79,143)
Expenses                                   (16,400)            (16,147)             (253)
Transfers                                        0             308,994          (308,994)

Assets January 1, 1997                1,947,774,056      1,917,830,259        29,943,797

Prepayment credit                                0            (108,567)           108,567
Contribution                            43,692,730          43,620,747             71,983
Other transaction                        1,071,376           1,071,376                  0
Earnings                               328,156,475         323,006,597          5,149,878
Benefit payments                       (71,391,922)        (71,307,563)           (84,359)
Expenses                                         0                   0                  0
Transfers                                        0           1,330,658         (1,330,658)

Assets January 1, 1998               $2,249,302,715     $2,215,443,507       $33,859,208
                         MARKET VALUE OF PENSION ASSETS                    APPENDIX A
                                FOR THE PERIOD                               Page 4 of 6
                           MARCH 1, 1986, TO JUNE 30, 2002


          Description              Total Company       Other Segment       Medicare

Assets January 1, 1998               $2,249,302,715     $2,215,443,507       $33,859,208

Prepayment credit                                 0                  0                  0
Contribution                             80,037,311         80,037,311                  0
Other transaction                      (377,498,698)      (377,498,698)                 0
Earnings                                300,752,214        296,150,506          4,601,708
Benefit payments                        (75,748,510)       (75,710,075)           (38,435)
Expenses                                          0                  0                  0
Transfers                                         0          2,202,047         (2,202,047)

Assets January 1, 1999                2,176,845,032       2,140,624,598       36,220,434

Prepayment credit                                0                   0                  0
Contribution                                     0                   0                  0
Other transaction                       (8,494,924)         (8,494,924)                 0
Earnings                               171,437,837         168,541,286          2,896,551
Benefit payments                       (72,356,210)        (72,251,203)          (105,007)
Expenses                                         0                   0                  0
Transfers                                        0           2,013,015         (2,013,015)

Assets January 1, 2000                2,267,431,735       2,230,432,772       36,998,963

Prepayment credit                                0                   0                  0
Contribution                                     0                   0                  0
Earnings                               140,948,634         138,612,632          2,336,002
Benefit payments                       (73,584,774)        (73,525,526)           (59,248)
Expenses                                         0                   0                  0
Transfers                                        0           1,379,382         (1,379,382)

Assets January 1, 2001                2,334,795,595       2,296,899,260       37,896,335

Prepayment credit                                 0                   0                 0
Contribution                                      0                   0                 0
Earnings                                (47,666,716)        (46,879,048)         (787,668)
Benefit payments                        (86,445,111)        (86,386,543)          (58,568)
Expenses                                          0                   0                 0
Transfers                                         0           1,119,725        (1,119,725)

Assets January 1, 2002               $2,200,683,768     $2,164,753,394       $35,930,374
                               MARKET VALUE OF PENSION ASSETS                                 APPENDIX A
                                      FOR THE PERIOD                                            Page 5 of 6
                                 MARCH 1, 1986, TO JUNE 30, 2002


             Description                     Total Company          Other Segment              Medicare

  Assets January 1, 2002                        $2,200,683,768         $2,164,753,394            $35,930,374

  Prepayment credit                                          0                       0                      0
  Contribution                                               0                       0                      0
  Earnings                                         (80,820,698)            (79,491,384)            (1,329,314)
  Benefit payments                                 (42,623,317)            (42,453,851)              (169,466)
  Expenses                                                   0                       0                      0
  Transfers                                                  0                       0                      0

  Assets June 30, 2002                          $2,077,239,753         $2,042,808,159            $34,431,594
  Per Nationwide                      9/        $2,077,239,753         $2,044,798,524            $32,441,229
  Asset Variance                      10/                   $0            ($1,990,365)            $1,990,365

  FOOTNOTES

1/ We calculated the Medicare segment assets based on our computed asset fraction (1.5028 percent). We
   computed the asset fraction as explained in the “Findings and Recommendations” section of the report.
   The amounts shown for the “other” segment represent the difference between the total company and the
   Medicare segment. All pension assets are shown at market value.

2/ We obtained total company contribution amounts from the actuarial valuation reports and Department of
   Labor/Internal Revenue Service Form 5500s. We allocated total company contributions to the Medicare
   segment based on the ratio of the Medicare segment funding target divided by the total company funding
   target. Contributions in excess of the funding targets were treated as prepayment credits and accounted for
   in the “other” segment until needed to fund pension costs in the future.

3/ We obtained the other transactions from documents prepared by Nationwide’s actuarial consulting firm.
   “Other” transactions represent plan mergers and spinoffs. The “other” transactions did not affect the
   Medicare segment assets.

4/ We obtained investment earnings from actuarial valuation reports. We allocated investment earnings based
   on the market value of Medicare assets at the beginning of the plan year after adjustment for transfers. For
   years starting with 1996, we allocated investment earnings based on the ratio of the segment’s weighted
   average value (WAV) of assets to total company WAV of assets as required by the Cost Accounting
   Standards (CAS).
                                 MARKET VALUE OF PENSION ASSETS                                    APPENDIX A
                                        FOR THE PERIOD                                               Page 6 of 6
                                   MARCH 1, 1986, TO JUNE 30, 2002




 5/ We calculated the Medicare segment’s benefit payments based on actual payments to Medicare segment
    retirees. We obtained information on the benefit payments from documents prepared by Nationwide’s
    actuarial consulting firm.

 6/ We allocated administrative expenses to the Medicare segment in proportion to investment earnings.

 7/ We identified participant transfers between segments based on the proposal settlement provided by
    Nationwide’s actuarial consulting firm. Our transfer adjustment considered each participant’s actuarial
    liability and the funding level of the segment from which the participant transferred. For transfers that
    occurred prior to the 1996 plan year, asset transfers reflected the funding level of the segment from which
    the participant transferred based on the actuarial liability and the asset value used for cost purposes. We
    calculated the funding level as the assets divided by the liabilities. If the funding level was greater than 1,
    the assets transferred between the segments were equal to the participants’ actuarial accrued liability. For
    plan years starting with 1996, asset transfers were equal to the actuarial liability determined under the
    accrued benefit cost method in accordance with the CAS.

 8/ Prepayment credits represent funds available to satisfy future funding requirements and are applied to 

    future funding requirements before current-year contributions to reduce interest costs to the Federal 

    Government. Prepayment credits are transferred to the Medicare segment as needed to cover funding 

    requirements. 


 9/ We obtained total asset amounts as of June 30, 2002, from documents prepared by Nationwide’s actuarial
    consulting firm.

10/ The asset variance represents the difference between our calculation of Medicare segment assets and
    Nationwide’s market value of assets.
                      COMPARISION OF ASSET FRACTION                        APPENDIX B


                 Initial Allocation of Medicare Segment Asset Variance

                   1981             1981       1981           1986          1986
                 Medicare      Total Company Rounded         Total        Medicare
                 Actuarial       Actuarial    Asset         Company       Segment
  Calculation    Liability        Liability  Fraction        Assets        Assets
                    (A)              (B)        (C)            (D)           (E)
                                             (A) / (B)                    (C) x (D)

Per Audit        $4,681,208     $311,507,700    1.5028%    $539,723,120   $8,110,959
Per Nationwide    4,690,266      312,169,208    1.5020%     539,723,120    8,106,641
Difference          ($9,058)       ($661,508)   0.0008%              $0       $4,318
        COMPARISION OF CONTRIBUTIONS                    APPENDIX C
           AND PREPAYMENT CREDITS
        Contributions and Prepayment Credits
Year       Per Audit    Per Nationwide Difference
1986         $587,960         $587,960            $0
1987           519,185         519,185             0
1988                 0               0             0
1989           641,744         549,700        92,044
1990         1,105,034       1,288,677      (183,643)
1991         1,270,474       1,474,004      (203,530)
1992         1,120,165               0    1,120,165
1993         1,336,769       1,595,925      (259,156)
1994         1,864,548       2,269,976      (405,428)
1995         1,952,898       2,315,572      (362,674)
1996         1,295,702       1,384,556       (88,854)
1997           180,550               0       180,550
1998                 0         446,284      (446,284)
1999                 0               0             0
2000                 0               0             0
2001                 0               0             0
2002                 0         734,280      (734,280)
Total     $11,875,029      $13,166,119  ($1,291,090)
 COMPARISION OF NET ASSET TRANSFERS                   APPENDIX D


              Net Asset Transfers
Year     Per Audit    Per Nationwide    Difference
1986       ($305,771)      ($305,772)            $1
1987        (358,959)       (372,678)        13,719
1988      (1,104,630)     (1,138,608)        33,978
1989        (417,679)       (417,679)             0
1990        (640,727)       (652,129)        11,402
1991        (530,206)       (542,849)        12,643
1992        (792,824)       (816,594)        23,770
1993        (820,126)       (835,134)        15,008
1994        (897,921)       (904,998)         7,077
1995      (1,201,597)     (1,205,471)         3,874
1996        (308,994)         95,024      (404,018)
1997      (1,330,658)     (2,393,526)    1,062,868
1998      (2,202,047)     (3,948,208)    1,746,161
1999      (2,013,015)     (2,425,533)      412,518
2000      (1,379,382)     (1,515,048)      135,666
2001      (1,119,725)     (1,332,723)      212,998
2002               0               0              0
Total   ($15,424,261)   ($18,711,926)   $3,287,665
                      CALCULATION OF AGGREGATE MEDICARE PERCENTAGE                                         APPENDIX E


 Plan Year            Medicare Segment                  Medicare Segment               Medicare Segment
 Beginning          Employer Contributions            Employee Contributions                Total

  03/01/1966                           $80,535                             $614                    $81,149

  03/01/1967                           124,427                               949                   125,376

  03/01/1968                           128,160                               977                   129,137

  03/01/1969                           132,005                             1,006                   133,011

  03/01/1970                           135,965                             1,036                   137,001

  03/01/1971                           140,044                             1,067                   141,111

  03/01/1972                           144,245                             1,099                   145,344

  03/01/1973                           148,572                             1,132                   149,704

  03/01/1974                           153,029                             1,166                   154,195

  03/01/1975                           157,620                             1,201                   158,821

  03/01/1976                           162,349                             1,237                   163,586

  03/01/1977                           217,663                             1,274                   218,937

  03/01/1978                           212,539                             1,422                   213,961

  03/01/1979                           177,408                             1,467                   178,875

  03/01/1980                           229,099                                 0                   229,099

  03/01/1981                           573,528                                 0                   573,528

  03/01/1982                           714,010                                 0                   714,010

  03/01/1983                           625,843                                 0                   625,843

  03/01/1984                           712,600                                 0                   712,600

  03/01/1985                           829,857                                 0                   829,857

  03/01/1986                           587,960                                 0                   587,960

  03/01/1987                           519,185                                 0                   519,185

  03/01/1988                                 0                                 0                         0

  03/01/1989                           641,744                                 0                   641,744

  01/01/1990                         1,105,034                                 0                 1,105,034

  01/01/1991                         1,270,474                                 0                 1,270,474

  01/01/1992                         1,112,444                                 0                 1,112,444

  01/01/1993                         1,321,779                                 0                 1,321,779

  01/01/1994                         1,845,666                                 0                 1,845,666

  01/01/1995                         1,933,804                                 0                 1,933,804

  01/01/1996                           940,803                                 0                   940,803

  01/01/1997                           173,835                                 0                   173,835

  01/01/1998                                 0                                 0                         0

  01/01/1999                                 0                                 0                         0

  01/01/2000                                 0                                 0                         0

  01/01/2001                                 0                                 0                         0

  01/01/2002                                 0                                 0                         0

  06/30/2002                                 0                                 0                         0

    Total                          $17,252,226                           $15,647 1/            $17,267,873     99.91% 2/


1/ Nationwide’s calculation of the aggregate Medicare percentage, which included employee contributions in the
denominator but excluded them from the numerator, in effect excluded the minor portion of the excess assets attributable to
employee contributions. Although this was not the proper way to determine the excess assets attributable to employee
contributions, we accepted Nationwide’s methodology because it did not yield a material difference.

2/ We calculated the aggregate Medicare percentage by dividing the total contributions made to the Medicare segment that
were employer related (numerator) by the total Medicare segment contributions (denominator).
APPENDIX F
 Page 1 of 20
APPENDIX F
 Page 2 of 20
APPENDIX F
 Page 3 of 20
APPENDIX F
 Page 4 of 20
APPENDIX F
 Page 5 of 20
APPENDIX F
 Page 6 of 20
APPENDIX F
 Page 7 of 20
APPENDIX F
 Page 8 of 20
APPENDIX F
 Page 9 of 20
APPENDIX F
 Page 10 of 20
APPENDIX F
 Page 11 of 20
APPENDIX F
 Page 12 of 20
APPENDIX F
 Page 13 of 20
APPENDIX F
 Page 14 of 20
APPENDIX F
 Page 15 of 20
APPENDIX F
 Page 16 of 20
APPENDIX F
 Page 17 of 20
APPENDIX F
 Page 18 of 20
APPENDIX F
 Page 19 of 20
APPENDIX F
 Page 20 of 20 

